APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Sixth Circuit, Allan v. Pa. Higher
Educ. Assistance Agency, No. 19-2043
(July 29, 2020) ............................................. App-1
Appendix B
Opinion, United States District Court for
the Western District of Michigan, Allan v.
Pa. Higher Educ. Assistance Agency,
No. 2:14-CV-54 (Aug. 19, 2019)................. App-32
Appendix C
Relevant Statutory Provision.................... App-42
47 U.S.C. § 227 .................................... App-42

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________
No. 19-2043
________________
SUSAN ALLAN; JESSICA WILSON,
v.

Plaintiffs-Appellees,

PENNSYLVANIA HIGHER EDUCATION ASSISTANCE
AGENCY, dba American Education Services,
Defendant-Appellant.
________________
Argued: Apr. 28, 2020
Decided & Filed: July 29, 2020
________________
Before: SILER, MOORE, and NALBANDIAN,
Circuit Judges.
________________
OPINION
________________
KAREN NELSON MOORE, Circuit Judge.
Jessica Wilson and Susan Allan (collectively,
“Plaintiffs”) received unwanted calls to their cell
phones from Pennsylvania Higher Education
Assistance Agency (“PHEAA”) regarding their
student-loan debt. They claim that those calls violated
the Telephone Consumer Protection Act, 47 U.S.C.
§ 227 et seq. (“TCPA”). The TCPA contains an

App-2
autodialer ban, which generally makes it a finable
offense to use an automatic telephone dialing system
(“ATDS”) to make unconsented-to calls or texts.1 The
question in this case is whether, as a matter of
statutory interpretation, the Avaya autodialer system
that PHEAA uses to make collection-related calls
qualifies as an ATDS.
Although it is clear from the text of the autodialer
definition under § 227(a) that a device that generates
and dials random or sequential numbers qualifies as
an ATDS, it is not clear whether a device like the
Avaya system—that dials from a stored list of
numbers only—qualifies as an ATDS. Fortunately,
related provisions clear up any ambiguity. We hold
that the plain text of § 227, read in its entirety, makes
clear that devices that dial from a stored list of
numbers are subject to the autodialer ban. We
accordingly AFFIRM the district court’s grant of
summary judgment for Plaintiffs.
I.

BACKGROUND

Jessica Wilson, with the help of co-signer Susan
Allan, took out a student loan serviced by PHEAA. At
one point in time, Wilson and Allan had submitted a
written request for forbearance on the loan and, in
doing so, consented to calls to their cell phones. On
October 4, 2013, however, Wilson requested that
PHEAA stop calling her about her loan. R. 30 (Pl.’s Ex.
B-3, Def.’s Resp. to Req. for Admis.) (Page ID #231).
Allan did the same on October 15, 2013. Id. Despite
their requests, PHEAA called Allan 219 times and
1 Text messages are covered by the TCPA. See Campbell-Ewald
Co. v. Gomez, 136 S. Ct. 663, 667 (2016).

App-3
Wilson 134 times, after they revoked consent, for a
total of 353 unconsented-to calls. R. 31 (Pl.’s Ex. F-1)
(Page ID #267); R. 32 (Pl.’s Ex. F-2) (Page ID #282);
see also R. 46 (Order Granting Summ. J. at 6-7) (Page
ID #402-03) (noting that “PHEAA has offered no
evidence to contradict those figures”). The calls were
made on a near-daily basis, often multiple times per
day. R. 31 (Pl.’s Ex. F-1) (Page ID #267); R. 32 (Pl.’s
Ex. F-2) (Page ID #282). In connection with at least
thirty of these calls, PHEAA left automated voice
messages on Allan’s cell phone, asking her to return
its call. R. 33 (Pl.’s Ex. G, Allan Aff. at 1-3) (Page ID
#297-99); see also R. 28-2 (Pl.’s Ex. B-1) (Page ID #144)
(describing the Avaya automated voice messaging
system).
The calls placed to Wilson’s and Allan’s cell
phones were automated. PHEAA uses the Avaya
Proactive Contact system to create calling lists and to
place calls with a pre-recorded, artificial voice. See R.
37-2 (Def.’s Ex. 2, Krobath Decl. at 3) (Page ID #333).
The calling list “is created daily by an automated
batch process that determines what subset of
accountholders qualifies for telephonic contact that
day, based on, among other things, amounts owed,
delinquency status and prior contacts.” Id. In other
words, the Avaya system creates a calling list based
on a stored list of numbers—the numbers are “not
randomly generated.” Id. A live person then “create[s]
the calling campaigns for the day.” Id. But it is the
Avaya dialing system that actually “places the calls
and connects [call recipients] to operators when a voice
is detected.” Id. This type of automated-calling device
is called a “predictive dialer.” In re Rules &
Regulations Implementing the Tel. Consumer Prot. Act

App-4
of 1991, 18 F.C.C. Rcd 14014, 14091, ¶ 131 (defining a
predictive dialer as “equipment that dials numbers
and, when certain computer software is attached, also
assists telemarketers in predicting when a sales agent
will be available to take calls”).
Wilson and Allan brought this suit against
PHEAA alleging that the unconsented-to calls violate
the TCPA. R. 1 (Compl.) (Page ID #1). After
conducting discovery, Plaintiffs moved for summary
judgment on April 1, 2019. R. 28 (Mot. for Summ. J.)
(Page ID #73). The district court granted their motion
and entered judgment in their favor on August 19,
2019, and awarded them damages in the amount of
$176,500. R. 46 (Order Granting Summ. J.) (Page ID
#397); R. 47 (Judgment) (Page ID #405). We have
jurisdiction over PHEAA’s timely appeal. See 28
U.S.C. § 1291.
II. DISCUSSION
We review de novo the district court’s decision to
grant summary judgment. See Hunt v. Sycamore
Cmty. Sch. Dist. Bd. of Educ., 542 F.3d 529, 534 (6th
Cir. 2008). “A grant of summary judgment will be
upheld only where no genuine dispute of material fact
exists and the moving party is entitled to judgment as
a matter of law.” Jackson v. VHS Detroit Receiving
Hosp., Inc., 814 F.3d 769, 775 (6th Cir. 2016). “[T]he
dispute about a material fact is ‘genuine’ . . . if the
evidence is such that a reasonable jury could return a
verdict for the nonmoving party.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986). “The district
court, and this Court in its review of the district court,
must view the facts and any inferences reasonably
drawn from them in the light most favorable to the

App-5
party against whom judgment was entered.”
Kalamazoo Acquisitions, L.L.C. v. Westfield Ins. Co.,
395 F.3d 338, 342 (6th Cir. 2005). Where the moving
party has the burden of proof, her “showing must be
sufficient for the court to hold that no reasonable trier
of fact could find other than for the moving party.”
Calderone v. United States, 799 F.2d 254, 259 (6th Cir.
1986) (quotation omitted). There are no genuine
disputes of material fact in this case.
Plaintiffs succeeded in moving for summary
judgment below. The two issues on appeal are whether
the Avaya system that PHEAA uses to make debtcollection calls qualifies as an ATDS under the TCPA,
and whether it was proper for the district court to
consider evidence of the thirty voicemails that PHEAA
left on Allan’s cell phone. We affirm the district court
on both counts.2
A. Interpreting ATDS
The TCPA autodialer ban generally makes it a
finable offense to use an automatic telephone dialing
system, or “ATDS,” to make unconsented-to calls or
texts. 47 U.S.C. § 227(b)(1). In the same section, the
TCPA defines ATDS as “equipment which has the
capacity-(A) to store or produce telephone numbers to
be called, using a random or sequential number
generator; and (B) to dial such numbers.” § 227(a).
That definition is at issue on this appeal. How to
define ATDS has split the circuits.

2 PHEAA also claims that the Avaya system requires some
human intervention, but does not make any legal arguments on
that point.

App-6
The Avaya autodialer system that PHEAA uses to
make collection-related calls dials from a stored list of
numbers. It does not randomly or sequentially
generate numbers to dial. Whether autodialer devices
like the Avaya system are covered by the TCPA is the
source of the circuit split. The Ninth Circuit was the
first to weigh in and held that stored-number systems
are covered under the TCPA. See Marks v. Crunch San
Diego, LLC, 904 F.3d 1041, 1052 (9th Cir. 2018)
(Ikuta, J.). The Second Circuit likewise concluded that
stored-number systems are covered. See Duran v. La
Boom Disco, Inc., 955 F.3d 279, 2020 WL 1682773 (2d
Cir. Apr. 7, 2020) (Cabranes, J.). The Seventh and
Eleventh Circuits have gone the other way. See
Gadelhak v. AT&T Servs., Inc., 950 F.3d 458, 460 (7th
Cir. 2020) (Barrett, J.); Glasser v. Hilton Grand
Vacations Co., 948 F.3d 1301, 1304-05 (11th Cir. 2020)
(Sutton, J., visiting).3
At the outset, we cannot look to Federal
Communications Commission (“FCC”) orders for
guidance on this interpretive question because the
D.C. Circuit invalidated the FCC’s interpretation of
ATDS in ACA Int’l v. Fed. Commc’ns Comm’n, 885
F.3d 687, 700 (D.C. Cir. 2018). See Marks, 904 F.3d at
1049; Glasser, 948 F.3d at 1310; Gadelhak, 950 F.3d
at 463. But see Duran, 955 F.3d 279 (holding that pre2015 FCC orders “survived” ACA International “and
We have not addressed this question in a published decision
and decline to adopt our reasoning in Gary v. TrueBlue, Inc., 786
F. App’x 555 (6th Cir. 2019) (order). The Third Circuit has not
expressly addressed this question, but it did assume (without
providing any analysis) that an ATDS must use a random or
sequential number generator. See Dominguez v. Yahoo, Inc., 894
F.3d 116 (3d Cir. 2018).
3

App-7
continue to inform [its] interpretation of the TCPA
today”). Previously, FCC orders permitted two,
contradictory interpretations of ATDS: (1) a device
qualifies as an ATDS “only if it can generate random
or sequential numbers to be dialed” and (2) a device
qualifies as an ATDS “even if it lacks that capacity” to
generate numbers. ACA Int’l, 885 F.3d at 702. “It
might be permissible,” the D.C. Circuit reasoned, “for
the Commission to adopt either interpretation,” “[b]ut
the Commission cannot, consistent with reasoned
decisionmaking,
espouse
both
competing
interpretations in the same order.” Id. at 703.
Plaintiffs argue that this holding pertains only to the
2015 FCC order that was being litigated in ACA
International, but the D.C. Circuit was clear that its
holding applied to the FCC’s earlier orders as well. Id.
at 701. Either interpretation is fair game now.
1.

Ambiguity
Definition

in

the

Autodialer

“In determining the meaning of a statutory
provision, we look first to its language, giving the
words used their ordinary meaning.” In re Application
to Obtain Discovery for Use in Foreign Proceedings,
939 F.3d 710, 717 (6th Cir. 2019) (quoting Artis v.
District of Columbia, 138 S. Ct. 594, 603 (2018)). To do
so, we “look[] at the language and design of the statute
as a whole.” Id. at 718.
The TCPA defines ATDS as “equipment
which has the capacity—
(A) to store or produce telephone numbers to
be called, using a random or sequential
number generator; and
(B) to dial such numbers.”

App-8
47 U.S.C. § 227(a)(1). Courts have tried to fashion a
plain text reading from these words, but each reading
has its problems, as every circuit to consider this
question admits.
First, the phrase “using a random or sequential
number generator” could apply both to “store” and
“produce,” like so:
An ATDS is “equipment which has the
capacity—
(A) to store [telephone numbers to be called,
using a random or sequential number
generator];
or produce telephone numbers to be
called, using a random or sequential
number generator; and
(B) to dial such numbers.”
§ 227(a)(1). Under this definition, the Avaya system
would not qualify as an ATDS because it does not store
numbers by using a random or sequential number
generator. The Avaya system instead stores numbers
using some other type of device.
The advantage of this reading is that it follows
proper grammar—here, the last antecedent rule.
When a clause is set off by a comma at the end of a
sentence, it should modify all that precedes it. See
Gadelhak, 950 F.3d at 468 (“[A] qualifying phrase
separated from antecedents by a comma is evidence
that the qualifier is supposed to apply to all the
antecedents instead of only to the immediately
preceding one.” (quoting WILLIAM N. ESKRIDGE JR.,
INTERPRETING LAW: A PRIMER ON HOW TO READ
STATUTES AND THE CONSTITUTION 67-68 (2016))).

App-9
The problem with this reading is that it requires
a strained reading of “store.” “[I]t is hard to see how a
number generator could be used to ‘store’ telephone
numbers,” even if it can “as a technical matter.” Id. at
464 (emphasis added) (citation omitted). Because a
number generator produces numbers, the more
natural reading is that “using a random or sequential
number generator” solely modifies “produce.” “As a
matter of ordinary usage it’s hard to say that the
random number generator is ‘storing’ in any notable
way.” Id. at 464-65 (quotation omitted). We will not
apply the last antecedent rule “in a mechanical way
where it would require accepting ‘unlikely premises.’”
Paroline v. United States, 134 S. Ct. 1710, 1721 (2014)
(quotation omitted). The last antecedent rule “is ‘not
an absolute and can assuredly be overcome by other
indicia of meaning.’” Id. (quoting Barnhart v. Thomas,
540 U.S. 20, 26 (2003)). There are other indicia of
meaning in § 227(b), as will be explained below. See
infra at 10-12.
This reading also renders “store” superfluous.
“Common sense suggests that any number that is
stored using a number-generator is also produced by
the same number-generator; otherwise, it is not clear
what ‘storing’ using a number-generator could mean.”
See Duran, 955 F.3d 279. Even if a random or
sequential number generator can store numbers, its
storage function, if any, is incidental to its production
function. “It is our duty ‘to give effect, if possible, to
every clause and word of a statute . . . . We are thus
‘reluctan[t] to treat statutory terms as surplusage’ in
any setting.” Duncan v. Walker, 533 U.S. 167, 174
(2001) (quotations omitted). True, Congress
sometimes will use the “belt-and-suspenders”

App-10
approach to avoid loopholes. But here, we risk creating
a loophole if we were to follow the Seventh and
Eleventh Circuits’ narrow interpretation of “store.” If
stored-number systems are not covered, companies
could avoid the autodialer ban altogether by
transferring numbers from the number generator to a
separate storage device and then dialing from that
separate storage device. The autodialer ban would not
apply to them because, technically, they are not using
the random or sequential number generator to store
and dial the numbers.
We conclude that this plain text reading of the
autodialer definition is too labored and problematic to
carry the day.
The second option is that the phrase “using a
random or sequential number generator” could apply
to “produce” only, like so:
An ATDS is “equipment which has the
capacity—
(A) to store [telephone numbers to be called];
or produce telephone numbers to be
called, using a random or sequential
number generator; and
(B) to dial such numbers.”
§ 227(a)(1). Under this reading, the Avaya system that
PHEAA uses would qualify as an ATDS because it
stores numbers and dials those numbers.
The advantage to this reading is that it avoids the
awkwardness and surplusage of the first reading. But
there is a new problem. “To store,” a transitive verb,
lacks a direct object. Thus, this reading requires
adding the phrase “telephone numbers to be called”

App-11
after “store” for it to make grammatical sense. This is
a significant modification. And as stated above, this
reading violates the last antecedent rule. We conclude
that the second plain text reading of the autodialer
definition is, by itself, unworkable, too.4
The dissent offers a third reading in which “using
a random or sequential number generator” modifies
the phrase “telephone numbers to be called.” We agree
that the dissent’s reading, like the first reading,
follows proper grammar. However, like the first
reading, the dissent’s reading still requires a strained
reading of “store.” Even if “using a random or
sequential number generator” modifies a truncated
version of the phrase that precedes it, it still makes
little sense why the statute would require stored
numbers to be called using a random or sequential
number generator. Moreover, it is the dissent’s
reading that introduces superfluity into the statute. If
the goal of the statute is to regulate devices that
randomly or sequentially generate numbers, then the
autodialer definition simply could include devices that
produce those numbers, without mentioning devices
that store those numbers. On the flipside, modifying
“produce” with “using a random or sequential number
generator” meaningfully differentiates “produce” from
“store.” Whereas it would be strange to store numbers
using a number generator, “produce,” on its own,
easily could mean numbers produced from a stored
list. At day’s end, the dissent’s proposed reading is not
so different from the first reading and does not open
4
There are other proposed interpretations that are
substantively the same as those discussed here or are inferior
options. See Gadelhak, 950 F.3d at 463-68.

App-12
up a new interpretive avenue not previously analyzed
by this court or other circuits.
The Seventh and Eleventh Circuits decided that
the first reading, though “imperfect,” was the better
option from a textual perspective. Gadelhak, 950 F.3d
at 468; Glasser, 948 F.3d at 1306. “Clarity,” the
Eleventh Circuit “lament[ed], does not leap off this
page of the U.S. Code. Each interpretation runs into
hurdles.” Glasser, 948 F.3d at 1306. The Seventh
Circuit conceded that “the comma seems to be
ungrammatical under any interpretation” and that “a
purported plain-meaning analysis based only on
punctuation is necessarily incomplete and runs the
risk of distorting a statute’s true meaning.” Gadelhak,
950 F.3d at 468 (quotation omitted). Nevertheless, the
Seventh Circuit concluded, the first reading “lacks the
more significant problems of the other three
interpretations and is thus our best reading of a
thorny statutory provision.” Id. In addition to the text,
the Seventh and Eleventh Circuits considered the
administrative and legislative history of the TCPA
and the practical effects of a more expansive
interpretation of ATDS. See Glasser, 948 F.3d at 130811; Gadelhak, 950 F.3d at 467.
The Second and Ninth Circuits rejected the
interpretation of ATDS adopted by the Seventh and
Eleventh Circuits. “After struggling with the statutory
language,” the Ninth Circuit concluded that the
autodialer definition, viewed in isolation, was
“ambiguous on its face” and went on to examine the
structure and context of the autodialer ban as a whole.
Marks, 904 F.3d at 1051.

App-13
We agree with the Ninth Circuit’s assessment and
approach. In doing so, we note, as the Ninth Circuit
did, that the D.C. Circuit already decided that the
definition of ATDS is open to more than one
reasonable interpretation. See id; ACA Int’l, 885 F.3d
at 703 (holding that it was permissible for the FCC to
interpret the autodialer ban as applying (1) to devices
that use a random or sequential number generator or
(2) devices that do not—just not both). Because the
definition of ATDS itself is ambiguous, we look to
other provisions of the autodialer ban to guide us in
our interpretation.
2.

The
Larger
Context
Autodialer Ban

of

the

Here, again, we agree with the Second and Ninth
Circuits that the structure and context of the
autodialer ban support an interpretation of ATDS that
would cover stored-number systems like the Avaya
system in this case. See Duran, 955 F.3d 279; Marks,
904 F.3d at 1051-52.5 Whatever Congress’s purpose
may have been at the time of enactment, “language in
the statute indicates that equipment that made
automatic calls from lists of recipients [is] also covered
by the TCPA.” Marks, 904 F.3d at 1051. One exception
to the autodialer ban, found in the same section of the
The Ninth Circuit also suggested that Congress ratified the
FCC’s definition of ATDS as including devices that dial from a
stored list of numbers when it amended other autodialer
provisions without modifying the provision at issue here. See
Marks, 904 F.3d at 1052. As the Eleventh Circuit points out,
“That is an odd thing to say about a reading of the statute that
the D.C. Circuit described as ‘[in]consistent with reasoned
decisionmaking.’” Glasser, 948 F.3d at 1310.
5

App-14
TCPA as the autodialer definition, shores up any
ambiguity.
The TCPA’s autodialer ban contains an exception
for calls “made with the prior express consent of the
called party.” § 227(b)(1)(A). Consenting recipients are
known persons whose numbers are stored on a list. See
Marks, 904 F.3d at 1051; Glasser, 948 F.3d at 1316
(Martin, J., concurring in part and dissenting in part).
In order to give their express consent prior to receiving
a call, they must give their number to the entity
making the call. Thus, the entity making the
automated call is dialing a stored number—not a
number that it randomly generated. The consent
exception is key to defining ATDS because an
exception cannot exist without a rule. An exception for
consented-to calls implies that the autodialer ban
otherwise could be interpreted to prohibit consentedto calls. And consented-to calls by their nature are
calls made to known persons, i.e., persons whose
numbers are stored on a list and were not randomly
generated. Therefore, the TCPA’s exception for calls
made to known, consenting recipients implies that the
autodialer ban applies to stored-number systems.
Under the Seventh and Eleventh Circuits’
interpretation of “store,” the numbers to be dialed
must have been randomly generated at some point.
But as the consent exception makes clear, the
autodialer ban covers calls made to known
recipients—in other words, people whose numbers are
known and are stored on a list. Calls made from a
stored list of numbers accordingly are subject to the
autodialer ban.

App-15
To combat this reading, the Eleventh Circuit
suggests that the consent exception simply does not
apply to automated calls. It notes, for this point, that
the TCPA regulates not just automated calls, but also
calls using a prerecorded or artificial voice. See
Glasser, 948 F.3d at 1311-12. The Eleventh Circuit
speculates that it was those prerecorded or artificial
voice calls that Congress sought to permit with the
consent exception. See id. “But,” as the Second Circuit
observed, “the language of the statute does not make
that distinction.” Duran, 955 F.3d 279 n.20. There is
no basis at all in the text of the statute for the
Eleventh Circuit’s bald assertion that the consent
exception does not apply to automated calls.6
We additionally note that the autodialer ban was
amended in 2015 to permit collection calls “made
solely pursuant to the collection of a debt owed to or
guaranteed by the United States.” § 227(b)(1)(A)(iii).
The Supreme Court recently struck that exception
because it “impermissibly favored [government-]debtcollection speech over political and other speech, in
violation of the First Amendment.” See Barr v. Am.
Ass’n of Political Consultants, Inc., – S. Ct. –, 2020 WL
3633780, at *2 (July 6, 2020) (“AAPC”) (Kavanaugh,
J.). The Court severed that provision from the
remainder of the autodialer ban, so that political
Additionally, “the FCC, when promulgating new rules to
explain the debt-collection exception, specifically noted that the
‘exception . . . allows the use of an autodialer, prerecorded-voice,
and artificial-voice when making calls[,]’ not just prerecorded- or
artificial-voice as the Eleventh Circuit suggests.” Duran, 955
F.3d 279 n.20 (quoting In re Rules and Regulations Implementing
the Tel. Consumer Prot. Act of 1991, 31 FCC Rcd. 9074, 9116
(2016) (emphasis added)).
6

App-16
automated calls would be “treated equally with debtcollection speech.” Id.
Prior to the Court’s decision in AAPC, the Second
and Ninth Circuits reasoned that an exception to the
autodialer ban for government-debt collectors implies
that the TCPA prohibits automated collection calls
made to collect on private debts. See Marks, 904 F.3d
at 1051-52; Duran, 955 F.3d at 285. Like consented-to
calls, calls made to collect on a debt are calls made to
known recipients. See Marks, 904 F.3d at 1052. These
calls are dialed from a stored list of numbers because
the debt-collection industry uses known numbers, not
random numbers. See Appellant Br. at 5 (“Obviously,
a loan servicer like PHEAA would have no interest in
randomly calling borrowers.”). They are targeting
known persons to collect on their debts. “[T]he only
way this exception [for calls made by government-debt
collectors] makes sense is if an ATDS can make calls
or texts using a human-generated list of phone
numbers.” Duran, 955 F.3d at 285. The now-defunct
government-debt-collection exception implies that the
autodialer ban covers stored-number systems.7
The Supreme Court’s decision in AAPC additionally suggests
that the autodialer ban applies to debt collectors like PHEAA. In
striking down the government-debt-collection exception, the
Court remarked that, prior to the 2015 amendment, “the TCPA
prohibited almost all robocalls to cell phones.” AAPC, 2020 WL
3633780, at *3 (Kavanaugh, J.). “The government-debt exception
[wa]s a relatively narrow exception to the broad robocall
restriction.” Id. at *12. In nullifying that exception, the plurality
acknowledged that its ruling would “eliminat[e] favorable
treatment for debt collectors,” a concern raised by Justice
Gorsuch in dissent. Id. at *13. Justice Sotomayor stated in
concurrence that the government-debt-collection exception could
not pass even intermediate scrutiny because the Government
7

App-17
We see no reason to strain the text of the
autodialer definition itself when related provisions
inform its meaning. “[I]f an examination of the
statute’s text, context, and structure produces an
answer to our interpretation question, we need inquire
no further.” In re Application to Obtain Discovery, 939
F.3d at 718. We therefore are not persuaded by the
Seventh and Eleventh Circuits’ analysis of the
administrative and legislative history of § 227 and the
purported practical effects of our interpretation.
3.

Administrative History, Legislative
History, and Practical Effects

Resort to other interpretive tools, in any case,
does not change our outcome. The Eleventh Circuit
makes use of the FCC’s administrative history and
points out that, from 1991 to 2003, the FCC defined an
ATDS as a device that uses a random or sequential
number generator. Glasser, 948 F.3d at 1308. Then
the FCC issued a series of orders from 2003 to 2015
expanding the definition to cover devices that dial
from a stored list without using a random or
sequential number generator. The Eleventh Circuit
calls this shift an attempt “to pour new wine
into . . . old skin.” Id. at 1308. In its view, the FCC’s
“has not explained how a debt-collection robocall about a
government-backed debt is any less intrusive or could be any less
harassing than a debt-collection robocall about a privately
backed debt.” Id. at *14 (Sotomayor, J., concurring). Thus, “the
government-debt exception is seriously underinclusive because it
permits many of the intrusive calls that the automated call ban
was enacted to prohibit.” Id. (quotation omitted). It appears,
then, to be taken for granted by at least some members of the
Court that the autodialer ban applies to private debt collectors
like PHEAA.

App-18
“efforts to fill a legislative gap” went too far. Id. at
1308-09. As for legislative history, the Eleventh
Circuit stated that “the be-all and end-all of the law”
merely was to “eradicate machines that dialed
randomly or sequentially generated numbers.” Id. at
1311.
It may well be that Big Data was not at the
forefront of the minds of Congress members and FCC
officials crafting and interpreting the TCPA. But
Congress did not explain the purpose of the autodialer
ban so narrowly, and apparently, by the year 2003, the
FCC thought that a broad interpretation of “store” was
defensible. Congress enacted the TCPA in 1991 to
combat pervasive telemarketing. See ACA Int’l, 885
F.3d at 692 (quoting 47 U.S.C. § 227 note, Pub. L.
No. 102-243, § 2(1), 105 Stat. 2394, 2394).
Telemarketing widely was viewed as “intrusive” and a
“nuisance.” Id. (quoting 47 U.S.C. § 227 note, Pub. L.
No. 102-243, § 2(6)-(7), 105 Stat. 2394, 2394). “[O]ver
300,000 telemarketing solicitors call[ed] more than 18
million Americans every day,” Marks, 904 F.3d at
1043 (quoting 137 Cong. Rec. S16,971 (daily ed. June
27, 1991) (statement of Rep. Pressler)), and “a single
autodialer could cause as many as 1,000 phones to ring
and then deliver a prerecorded message to each,” id.
(citing H.R. Rep. No. 102-317, at 10 (1991)).
“A leading Senate sponsor of the TCPA captured
the zeitgeist in 1991, describing robocalls as ‘the
scourge of modern civilization. They wake us up in the
morning; they interrupt our dinner at night; they force
the sick and elderly out of bed; they hound us until we
want to rip the telephone right out of the wall.’” AAPC,
2020 WL 3633780, at *3 (Kavanaugh, J.) (quoting 137

App-19
Cong. Rec. 30821 (1991)). It is clear from the
legislative history that Congress intended to crack
down on automated calls themselves—not just the
technology making them possible at the time. The
multiple debt-collection calls made to Wilson and
Allan on a near-daily basis in this case certainly are
the sort of harm contemplated at the time of
enactment and, indeed, are the type of calls that
“consumers appear to find most invasive.” See id. at
*21 (Gorsuch, J., concurring in part and dissenting in
part).
Nevertheless, to make its case that the legislative
and administrative history is in its favor, the Eleventh
Circuit observes that “devices that randomly
generated phone numbers and stored them existed at
the time Congress passed the Act.” Glasser, 948 F.3d
at 1307 (citing Noble Systems Corp., Comments on
FCC’s Request for Comments on the Interpretation of
the TCPA, 12-13 (Oct. 16, 2018) FCC DA 18-493); see
also Gadelhak, 950 F.3d at 465 (“[S]ome systems
‘store’ randomly generated numbers for much longer
than a few fleeting moments. The record before the
FCC reveals that at the time of the statute’s
enactment, devices existed with the capacity to
generate random numbers and then store them in a
file for a significant time before selecting them for
dialing.”). It cites, for this statement, a comment made
by a single company as its contribution to the process
of FCC rule-making. Even if this lone comment were
compelling evidence that Congress knew of dualfunction devices, “store” still would be redundant of
“produce.” See supra at 7-9. This evidence leaves open
the possibility that Congress intended to regulate

App-20
(1) number-producing devices, (2) number-storing
devices, and (3) dual-function devices.
Next, the Eleventh Circuit reasons that the more
expansive interpretation of “store” would apply to
nearly any device with storage capabilities, rendering
“using a random or sequential number generator” an
unnecessary add-on in most cases. Glasser, 948 F.3d
at 1307. Yet, to the extent that this is true, it is true
only today. It obviously was not true at the time of
enactment. Just because the primary enforcement
mechanism at the time of enactment goes dormant
decades after the fact does not mean that it is mere
surplusage as a textual matter. And even then,
“dormant” would be a strong word, as companies may
continue to make use of random or sequential number
generators in mass-dialing campaigns. “When a new
application emerges that is both unexpected and
important, [the Eleventh Circuit] would seemingly
have us . . . decline to enforce the plain terms of the
law . . . . That is exactly the sort of reasoning [the
Supreme] Court has long rejected.” Bostock v. Clayton
County, – S. Ct. –, 2020 WL 3146686, at *15 (June 15,
2020).
Finally, the Eleventh Circuit expresses concern
that the more expansive interpretation of “store”
would capture everyday use of smart phones. Glasser,
948 F.3d at 1309. “In the age of smartphones, it’s hard
to think of a phone that does not have the capacity to
automatically dial telephone numbers stored in a list,
giving § 227 an ‘eye-popping’ sweep. Suddenly an
unsolicited call using voice activated software (think
Siri, Cortana, Alexa) or an automatic ‘I’m driving’ text
message could be a violation worth $500.” Id. (citation

App-21
omitted). The Seventh Circuit agreed, stating that the
more expansive interpretation “would create liability
for every text message sent from an iPhone.”
Gadelhak, 950 F.3d at 467. The purported “farreaching consequences” appear to have been a big
sticking point for the Seventh Circuit:
[The more expansive interpretation of “store”
would create] a sweeping restriction on
private consumer conduct that is inconsistent
with the statute’s narrower focus. Gadelhak
argues that to qualify as an “automatic
telephone dialing system” a device need only
have the “capacity ... to store ... telephone
numbers” and then to call or text them
automatically. Every iPhone today has that
capacity right out of the box. An iPhone of
course can store telephone numbers; it can
also send text messages automatically, for
example by using the “Do Not Disturb While
Driving” function. Every iPhone, then, has
the necessary capacities to meet the statutory
definition. That means that under Gadelhak’s
interpretation, every call or text message sent
from an iPhone without the prior express
consent of the recipient could subject the
sender to a $500 fine.
Id. (quotations omitted).
The concern that everyday use of smart phones
would become subject to a fine is unfounded. The D.C.
Circuit already dealt with this concern in ACA
International
when
it
rejected
the
FCC’s
interpretation of “capacity” in § 227(a)(1). 885 F.3d at
692. As a reminder, an ATDS is “equipment which has

App-22
the capacity” to store or produce numbers and to dial
such numbers. § 227(a)(1) (emphasis added). The FCC
had “construed a device’s ‘capacity’ to encompass its
‘potential functionalities’ with modifications such as
software changes.” ACA Int’l, 885 F.3d at 693-94
(quoting 2015 Declaratory Ruling, 30 FCC Rcd. at
7974 ¶ 16) (emphasis added). The D.C. Circuit set that
definition aside. Id. at 692. “It [wa]s undisputed that,”
under the FCC’s interpretation of “capacity,”
“essentially any smartphone, with the addition of
software, c[ould] gain the statutorily enumerated
features of an autodialer and thus function as an
ATDS.” Id. at 696 (emphasis added). To prevent this
outcome, the D.C. Circuit rejected the FCC’s
interpretation of “capacity” as “unreasonably, and
impermissibly, expansive.” Id. at 700. Thus, the D.C.
Circuit held that a device is an ATDS only if it actually
is used in the way prescribed by statute. Id. That
means that use of a cell phone would be subject to a
fine under the TCPA only if it actually is used as an
ATDS.
To that end, the autodialer ban applies to
automatic dialing systems or artificial or prerecorded
voice messages only. See § 227(b) (titled “[r]estrictions
on use of automated telephone equipment” (emphasis
added)). It is an “accepted assumption that autodialers must automatically dial the numbers.”
Glasser, 948 F.3d at 1312. To the extent that
companies use smart phone autodialer software to call
or message recipients en masse, that would be covered.
But the standard, non-automatic message or call
would not create TCPA liability. See id. at 1317
(Martin, J., concurring in part and dissenting in part)
(“[W]hat may have been a reasonable worry in ACA

App-23
International doesn’t exist here. Neither situation
hypothesized by the majority involves the
simultaneous dialing of numbers, plural.”). Voice
activation software for messaging, like Siri or Alexa,
or automatic response messages are not, as the
Eleventh Circuit majority assumes, autodialers. See
Glasser, 948 F.3d at 1309. Voice activation software
simply allows a person to dictate the recipient,
message, and command to send rather than type the
instructions and message. It is not an “automatic”
process. And automatic reply messages are only sent
in reply. Plaintiffs would have a tough go of showing
that they did not consent to receiving a message after
they themselves initiated contact. At bottom, the
Seventh and Eleventh Circuits’ “pragmatic” concerns
are really a parade of horribles.
4.

Conclusion

We conclude that it is impossible to draw any
reliable conclusion from a plain text reading of the
autodialer definition itself and instead rely on the
larger context of the autodialer ban. The Eleventh
Circuit calls the Ninth Circuit’s interpretation
“surgery,” but as the dissent in Glasser points out,
“this operation cannot be completed (to either side’s
satisfaction) without some minimally invasive
procedures.” See Glasser, 948 F.3d at 1318 (Martin, J.,
concurring in part and dissenting in part). The
Seventh and Eleventh Circuits seem to concede that
the text of the autodialer definition itself is
ambiguous—even if they do not say it directly. They
claim to stake their rationale on a plain text reading
of the statute. Yet, when it comes to interpreting the
word “store,” they pivot and play up the

App-24
administrative history and “practical effects,” while
downplaying a textual reading of surrounding
provisions that would open up a broader application of
the autodialer ban.
In the Title VII context, the Supreme Court has
rejected the same types of maneuvers that the
Seventh and Eleventh Circuits engage in here. See
Bostock, 2020 WL 3146686, at *9. The Seventh and
Eleventh Circuits “retreat beyond the statute’s text,
where they” emphasize “the legislature’s purposes in
enacting [the autodialer ban] or certain expectations
about its operation. They warn, too, about
consequences that might follow a ruling for the
[plaintiffs]. But none of these contentions about what
the [Seventh and Eleventh Circuits] think the law was
meant to do, or should do, allow us to ignore the law
as it is.” See id. “Legislative history, for those who take
it into account, is meant to clear up ambiguity, not
create it.” Id. at *14 (quoting Milner v. Dep’t of Navy,
562 U.S. 562, 574 (2011)). “[W]hen the meaning of the
statute’s terms is plain, our job is at an end.” Id.
It is our view that related provisions of the
autodialer ban are the best guide to the question of
how to interpret § 227(a)(1). The consent exception, in
particular, commands the plain text reading that the
autodialer ban applies to stored-number systems. We
accordingly read § 227(a)(1) as follows:
An ATDS is “equipment which has the
capacity—
(A) to store [telephone numbers to be called];
or produce telephone numbers to be
called, using a random or sequential
number generator; and

App-25
(B) to dial such numbers.”
§ 227(a)(1). In doing so, we join the Second and Ninth
Circuits and hold that a stored-number device like the
Avaya system here qualifies as an ATDS. The district
court correctly entered judgment in Plaintiffs’ favor on
this question.
B. Introduction of Voicemails
PHEAA additionally argues that Plaintiffs should
not be able to recover damages for the thirty
voicemails that PHEAA left on Allan’s cell phone,
asking her to return its call. Plaintiffs did not include
these voicemails in their Complaint and did not
amend the Complaint to include them. Instead,
Plaintiffs introduced the voicemails for the first time
on summary judgment. But as the district court noted,
these voicemails are associated with calls that were
listed in Plaintiffs’ Complaint. “In other words, the 30
pre-recorded voicemails were included in the 353
violations and were not alleged as additional
violations, only as an alternative theory of recovery.”
R. 46 (Order Granting Summ. J. at 7) (Page ID #403).
The district court properly considered the voicemails.
III. CONCLUSION
We hold that PHEAA’s Avaya system qualifies as
an ATDS and accordingly AFFIRM the district court’s
grant of summary judgment for Plaintiffs.

App-26
NALBANDIAN, Circuit Judge, dissenting.
Several courts of appeals and the majority here have
discussed at length the meaning of the operative
statutory language in this case. And the Supreme
Court will likely address its meaning in the near
future. See Facebook, Inc. v. Duguid, No. 19-511, --- S.
Ct. ---, 2020 WL 3865252 (July 9, 2020). I am not going
to rehash all of that debate. Suffice it to say, I disagree
with the majority’s conclusion here and with much of
the analysis from other courts.
Everyone seems to agree that the relevant
provision here is not an example of artful drafting. But
I disagree with the majority’s determination that the
text used to define an automatic telephone dialing
system (ATDS), see 47 U.S.C. § 227(a)(1), is
“ambiguous.” Ante, at 9. While the text may contain
ambiguity, the text in my view is not “ambiguous”; it
does not leave us with an inability to glean the text’s
meaning from § 227(a)(1) itself. Id. And I disagree
with the interpretation the majority reaches under its
methodology. I accordingly dissent.
Congress defined an automatic telephone dialing
system (ATDS) as “equipment which has the capacity
[] (A) to store or produce telephone numbers to be
called, using a random or sequential number
generator; and (B) to dial such numbers.” § 227(a)(1).
Other circuits have examined that text and split in
primarily two camps on how to interpret it. Compare
Duran v. La Boom Disco, Inc., 955 F.3d 279 (2d Cir.
2020), and Marks v. Crunch San Diego, LLC, 904 F.3d
1041, 1052 (9th Cir. 2018), with Gadelhak v. AT&T
Servs., Inc., 950 F.3d 458, 460 (7th Cir. 2020), and
Glasser v. Hilton Grand Vacations Co., 948 F.3d 1301,

App-27
1304-05 (11th Cir. 2020), and Dominguez v. Yahoo,
Inc., 894 F.3d 116 (3d Cir. 2018). Now it’s our turn.
The majority summarizes two possible readings of
Congress’s words before settling on one of the two.
Ante, at 6-17. I’d like to propose a third—“using a
random or sequential number generator” modifying
the entire phrase “telephone numbers to be called”—
that I believe is the best and correct reading of the
statute.1 Under my reading of § 227(a)(1), Congress
defined an ATDS as “equipment which has the
capacity [] (A) to store or produce telephone numbers
to be called, using a random or sequential number
generator; and (B) to dial such numbers.” In that case,
the modifier describes “a quality of the numbers an
ATDS must have the capacity to store or produce[,]”
specifically “the process by which those numbers are
generated in the first place.” Pinkus v. Sirius XM
Radio, Inc., 319 F. Supp. 3d 927, 938 (N.D. Ill. 2018).
I find this reading the best for four reasons.
First, this reading is both grammatical and does
not require a rewrite of the statute. See Gadelhak, 950
F.3d at 466 (describing the majority’s reading as “a
significant judicial rewrite”); Glasser, 948 F.3d at 1311
(describing
that
reading
as
“more
like
‘surgery,’ . . . than interpretation”). The noun phrase
“telephone numbers to be called” contains both a noun
(“telephone numbers”) and an adjectival infinitive (“to
be called”). The modifier (“using a random or
1 There appear to be two other possible readings of the
statute—“using a random or sequential number generator”
modifying either “telephone numbers” or “to be called.” See
Gadelhak, 950 F.3d at 465-66, 67-68. Because I find those options
unconvincing, I don’t discuss them further.

App-28
sequential number generator”) is a participial
phrase—a group of words containing a participle (“a
form of the verb”) with “modifiers and objects” of its
own and that is often set off by commas “follow[ing]”
the noun phrases, object, or verb it modifies.2 Gordon
Loberger & Kate Shoup, Webster’s New World English
Grammar Handbook 214, 368 (2d ed. 2009)
(explaining that participial phrases usually serve as
adjectives). In this case, the participial phrase
modifies the noun phrase “telephone numbers to be
called.” And this makes sense given the modifier’s
placement—immediately following the noun phrase it
modifies.3 See id. at 102 (explaining “[c]ommon
The Seventh Circuit labeled the modifying phrase as an
adverbial phrase before finding that the phrase “cannot modify a
noun in this context” (“telephone numbers”). Gadelhak, 950 F.3d
at 465-66. But that approach here puts the cart before the horse.
2

A word or phrase could have multiple functions. It’s the context
in which the writer uses the word or phrase, e.g., placement in a
sentence or the sentence’s structure, that determines the
particular function the word or phrase takes on. E.g., Gordon
Loberger & Kate Shoup Welsh, Webster’s New World English
Grammar Handbook 310 (2001) (labeling “due to” as “adjectival
in nature” in one sentence while in another as “adverbial”). To
classify the function of a word or phrase thus requires the reader
to evaluate the manner in which the drafter uses it before
classifying it. The modifier “using a random or sequential
number generator” could function as either an adverbial or a
participial phrase. To understand the way the drafters used that
phrase—as an adverbial or as a participial phrase—a reader has
to examine the sentence and then classify it.
3 I believe that the majority misinterprets the reading I
propose. First, it explains “it would be strange to store numbers
using a [random] number generator[.]” Ante, at 8-9. Second, it
remarks “it still makes little sense why the statute would require
stored numbers to be called using a random or sequential number

App-29
[p]itfalls with . . . [a]djectives” including “locat[ing]
[them] in places other than near the words they
modify”).
Second, the effect of this reading—mitigating the
superfluity problem with the reading in Gadelhak and
Glasser—supports the superiority of this reading. It
also avoids the superfluity problem—“read[ing] a key
clause (‘using a random or sequential number
generator’) out of the statute”—with the majority’s
reading. Glasser, 948 F.3d at 1307. True, the general
presumption against surplusage, like all other
interpretive canons, is merely a presumption that
reflects drafters’ ordinary practices. Antonin Scalia &
Bryan A. Gardner, Reading Law: The Interpretation of
Legal Texts 176-79 (2012) (“[L]ike all other canons,
th[e] [surplusage] one must be applied with judgment
and discretion, and with careful regard to context. It
cannot always be dispositive because (as with most
canons) the underlying proposition is not invariably
true.”); see also William N. Eskridge, Jr., Interpreting
Law: A Primer on How to Read Statutes and the
Constitution 113 (2016) (describing the limitations on
the anti-surplusage canon). But this is not a case
where the grammatical reading that avoids
superfluity results in “an unusual meaning[,]” Scalia
generator.” Id. at 8. But under the reading I propose, the modifier
(“using a random or sequential number generator”) has nothing
to do with the act of storing numbers and my reading does not
require the ATDS call numbers “using a random or sequential
number generator.” Instead, under my reading, the modifier
describes only the type (or quality) of telephone number (those
generated “using a random or sequential number generator”)
that the ATDS “store[s] or produce[s]” and then ultimately dials.
So those responses are inapplicable.

App-30
& Garner, supra, at 176; it is one that makes good
sense.
Third, the understanding of the statutory text as
reflected in the FCC’s orders from 1991 to 2003
confirms my reading of the text. See ante, at 12
(explaining that the FCC’s orders from 1991 to 2003
“defined an ATDS as a device that uses a random or
sequential number generator”); see also Glasser, 948
F.3d at 1308. Though we do not look to the FCC’s
orders for guidance on the statutory interpretation
question before this court, see ante, at 5, those earlier
orders provide at least some evidence on the
contemporaneous understanding of the statutory text.
See Glasser, 948 F.3d at 1308 (invoking the FCC’s
orders in the same manner to support another
interpretation of the statutory text).
Fourth, the historical context provides further
evidence supporting the meaning laid out by the
statutory text. Congress sought to address a very
specific problem with this statute—machines that
would dial particular numbers in the process of
“dialing randomly or sequentially generated telephone
numbers—a concern raised in the legislative debates.”
Id. at 1308-11 (“Congress wanted the statute to
eradicate machines that dialed randomly or
sequentially generated numbers.”). “That indeed
seems to have been the be-all and end-all of the law.”
Id. at 1311 (citing H.R. 1304 & 1305, Hearing Before
the Subcomm. On Telecomms. & Fin. of the H. Comm.
on Energy & Commerce, 102d Cong. 1 (1991)
(statement of Chairman Edward J. Markey)).
There is no obvious answer to the question raised
in this case as evidenced by the different approaches

App-31
used by my learned colleagues from this court and
others. But under my understanding of § 227(a)(1), a
device like the Avaya system that dials only from a
selected stored list of numbers does not qualify as an
ATDS. Therefore, I disagree with the majority’s
decision to affirm the district court’s decision granting
Plaintiffs summary judgment and accordingly dissent.

App-32
Appendix B
UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF MICHIGAN
________________
No. 2:14-CV-54
________________
SUSAN ALLAN and JESSICA WILSON,
v.

Plaintiffs,

PENNSYLVANIA HIGHER EDUCATION ASSISTANCE
AGENCY, dba American Education Services,
Defendants.
________________
Filed: Aug. 19, 2019
________________
Before: Hon. Gordon J. Quist
________________
OPINION REGARDING PLAINTIFFS’
MOTION FOR SUMMARY JUDGMENT
________________
Plaintiffs, Susan Allan and Jessica Wilson, sued
Defendant,
Pennsylvania
Higher
Education
Assistance Agency (PHEAA), alleging that PHEAA
violated the Telephone Consumer Protection Act
(TCPA), 47 U.S.C. § 227 et seq., by calling Plaintiffs’
cell phones 353 times using an automatic telephone
dialing system (ATDS) or an artificial or prerecorded
voice without their consent. Plaintiffs moved for
summary judgment, requesting that the Court award

App-33
at least the statutory minimum of $500 for each
violation, for a total of $176,500, but asking the Court
to exercise its discretion to award treble damages for
each violation for a total of $529,500. (ECF No. 28.)
PHEAA responded, arguing (1) that the system used
to dial Plaintiffs’ cell phones does not fit the statutory
definition of an ATDS; (2) that Plaintiffs waived the
right to recover any damages for “pre-recorded calls”
because the allegation appears for the first time in
Plaintiffs’ motion for summary judgment; and (3) that
even if the Court finds that PHEAA violated the
TCPA, treble damages are not appropriate. (ECF No.
37.)
I.

BACKGROUND

PHEAA is the servicer for Wilson’s student loans,
and Allan was the co-signer for Wilson’s student loans
as well as the student loans of a third person. PHEAA
claims, and Plaintiffs do not appear to dispute, that
Plaintiffs gave their consent for PHEAA to call their
cell phones using an ATDS or an artificial or
prerecorded voice when Plaintiffs submitted a written
request for forbearance on the loans. However, on
October 4, 2013, Allan spoke with a representative of
PHEAA and requested that PHEAA stop calling her
on her cell phone. (Pls.’ Ex. C, Def.’s Resp. to Req. for
Admis., ECF No. 30 at PageID.231.) Then, on October
15, 2013, Wilson spoke with a representative of
PHEAA and likewise requested that PHEAA stop
calling her on her cell phone. (Id.)
PHEAA called Allan’s cell phone regarding
student loans 219 times after October 4, 2013, and
Wilson’s cell phone 134 times after October 15, 2013.
(Pls.’ Ex. F, ECF Nos. 31-32.) PHEAA used a system

App-34
called the Avaya Proactive Contact system to place
each of the calls. Christopher Krobath, PHEAA’s
Senior Manager of Workflow and Operational
Support, explained how the Avaya system operates:
PHEAA’s system uses a calling list that is
created daily by an automated batch process
that
determines
what
subset
of
accountholders qualifies for telephonic
contact that day, based on, among other
things, amounts owed, delinquency status
and prior contacts. The calling list is not
randomly generated. Each morning a new
and unique calling list is downloaded to the
Avaya equipment used in connection with
making the calls to the accountholders who
will be called based on the selection criteria
outlined above. A human intervenes at that
point to create calling campaigns for the day.
Jobs are started by the person setting up the
daily workflow. The dialing system places the
calls and connects them to operators when a
voice is detected.
(Def.’s Ex. 2, Krobath Decl., ECF No. 37-2 at
PageID.333.)
II. MOTION STANDARD
Summary judgment “shall” be granted “if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
While the Court must view the evidence in the light
most favorable to the non-moving party, the party
opposing the summary judgment motion “must do
more than simply show that there is some

App-35
metaphysical doubt as to the material facts.” Id. The
existence of a mere “scintilla of evidence” in support of
the non-moving party’s position is insufficient. Daniels
v. Woodside, 396 F.3d 730, 734-35 (6th Cir. 2005). The
non-moving party “may not rest upon [his] mere
allegations,” but must instead present “significant
probative evidence” establishing that “there is a
genuine issue for trial.” Pack v. Damon Corp., 434 F.3d
810, 813-14 (6th Cir. 2006).
While a moving party without the burden of proof
need show only that the opponent cannot sustain his
burden at trial, a moving party with the burden of
proof faces a “substantially higher hurdle.” Arnett v.
Myers, 281 F.3d 552, 561 (6th Cir. 2002). Where the
moving party has the burden, “his showing must be
sufficient for the court to hold that no reasonable trier
of fact could find other than for the moving party.”
Calderone v. United States, 799 F.2d 254, 259 (6th Cir.
1986). The Sixth Circuit has emphasized that the
party with the burden of proof “must show the record
contains evidence satisfying the burden of persuasion
and that the evidence is so powerful that no
reasonable jury would be free to disbelieve it.” Arnett,
281 F.3d at 561. Accordingly, summary judgment in
favor of the party with the burden of persuasion “is
inappropriate when the evidence is susceptible of
different interpretations or inferences by the trier of
fact.” Hunt v. Cromartie, 526 U.S. 541, 553 (1999).
III. ANALYSIS
The Court agrees with Plaintiffs that the Avaya
system that PHEAA uses qualifies as an ATDS, and
that PHEAA committed several violations of the

App-36
TCPA, but the Court finds the violations entitle
Plaintiffs to statutory damages, not treble damages.
In relevant part, the TCPA prohibits “mak[ing]
any call (other than a call made for emergency
purposes or made with the prior express consent of the
called party) using any automatic telephone dialing
system or an artificial or prerecorded voice” to a cell
phone. 47 U.S.C. § 227(b)(1)(A)(iii). The term
“automatic telephone dialing system” is defined as
“equipment which has the capacity—(A) to store or
produce telephone numbers to be called, using a
random or sequential number generator; and (B) to
dial such numbers.” 47 U.S.C. § 227(a)(1). The parties
dispute whether PHEAA’s Avaya system qualifies as
an ATDS.
Since the enactment of the TCPA in 1991, the
Federal Communications Commission (FCC) has
issued multiple orders interpreting the TCPA’s
definition of an ATDS. The D.C. Circuit Court of
Appeals reviewed several challenges to the FCC’s
rulings and vacated the FCC’s interpretations. ACA
Int’l v. FCC, 885 F.3d 687 (D.C. Cir. 2018). In
particular, the D.C. Circuit focused on the FCC’s
interpretation of the term “capacity” and found that
the TCPA is not violated when a call is made from
equipment with the capacity to function as an
autodialer if autodialer features are not used to make
the call. Id. at 695.
The D.C. Circuit also addressed challenges to the
FCC’s interpretation of what functions equipment
must possess to qualify as an autodialer, which is the
focus of this case. As the D.C. Circuit noted: “A basic
question raised by the statutory definition is whether

App-37
a device must itself have the ability to generate
random or sequential telephone numbers to be dialed.
Or is it enough if the device can call from a database
of telephone numbers generated elsewhere?” Id. at 701
(italics in original). The D.C. Circuit vacated the FCC’s
ruling on the matter because the FCC’s “ruling
appear[ed] to be of two minds on the issue,” thus
leaving the public with a “lack of clarity about which
functions qualify a device as an autodialer.” Id. at 701,
703. But the D.C. Circuit noted that “it might be
permissible . . . to adopt either interpretation.” Id. at
702-03.
The only circuit court to analyze the issue in depth
since the D.C. Circuit’s ruling in ACA International is
the Ninth Circuit. The Ninth Circuit explained:
“Because the D.C. Circuit vacated the FCC’s
interpretation of what sort of device qualified as an
ATDS, only the statutory definition of ATDS as set
forth by Congress in 1991 remains.” Marks v. Crunch
San Diego, LLC, 904 F.3d 1041, 1049-50 (9th Cir.
2018), cert. dismissed, 139 S. Ct. 1289 (2019).
Therefore, the Ninth Circuit relied on traditional
principles of statutory construction to interpret the
meaning of an ATDS under the TCPA.
The Ninth Circuit found the statutory definition
of ATDS to be ambiguous, citing the D.C. Circuit’s
finding that alternate interpretations “might be
permissible.” Id. at 1051 (citing ACA Int’l, 885 F.3d at
702-03). An ATDS is simply defined as “equipment
which has the capacity—(A) to store or produce
telephone numbers to be called, using a random or
sequential number generator; and (B) to dial such
numbers.” 47 U.S.C. § 227(a)(1). However, the

App-38
question remains whether the phrase “using a random
or sequential number generator” modifies only the
verb “produce” or modifies both “store” and “produce.”
In other words, is an ATDS defined as “equipment
which has the capacity (A) to [i] store [telephone
numbers to be called] or [ii] produce telephone
numbers to be called, using a random or sequential
number generator; and (B) to dial such numbers,” or
as “equipment which has the capacity (A) to store
[telephone numbers produced using a random or
sequential number generator]; or [to] produce
telephone numbers to be called, using a random or
sequential number generator; and (B) to dial such
numbers[?]” Marks, 904 F.3d at 1050-51.
The Ninth Circuit looked to the “context and the
structure of the statutory scheme” to resolve that
question. Id. at 1051. The Ninth Circuit pointed out
that certain provisions of the TCPA allow an ATDS to
call select numbers—for instance, § 227(b)(1)(A)
permits the use of an autodialer for a call “made with
the prior express consent of the called party.” But “[t]o
take advantage of this permitted use, an autodialer
would have to dial from a list of phone numbers of
persons who had consented to such calls, rather than
merely dialing a block of random or sequential
numbers.” Id. Additionally, Congress amended
§ 227(b)(1)(A)(iii) in 2015 to exempt the use of an
ATDS to make calls “solely to collect a debt owed to or
guaranteed by the United States.” The 2015
amendment presumes a definition of an ATDS that
includes equipment dialing from a list of individuals.
Id. at 1051-52. Thus, the Ninth Circuit “conclude[d]
that the statutory definition of ATDS includes a device
that stores telephone numbers to be called, whether or

App-39
not those numbers have been generated by a random
or sequential number generator.” Id. at 1043.
The Court agrees with the Ninth Circuit’s
analysis, and because there is no question that the
Avaya system that PHEAA uses stores telephone
numbers to be called and automatically dials those
numbers, the system qualifies as an ATDS. The
remaining questions relate to the number of violations
and the damages.
While Plaintiffs may have consented to receive
calls from PHEAA when seeking forbearance on the
student loans, Allan revoked consent on October 4,
2013, and Wilson revoked consent on October 15,
2013. See ACA Int’l, 885 F.3d at 695 (sustaining the
FCC’s ruling “that a party can revoke consent through
any reasonable means clearly expressing a desire to
receive no further calls or texts”). PHEAA’s Excel
spreadsheets, offered by Plaintiffs, show that the
Avaya system placed calls to Allan’s cell phone 219
times after she revoked consent and to Wilson’s cell
phone 134 times after she revoked consent, for a total
of 353 violations of the TCPA. (Pls.’ Ex. F, ECF Nos.
31-32.) PHEAA has offered no evidence to contradict
those figures.
PHEAA argues that Plaintiffs should not be
allowed to recover any damages for 30 pre-recorded
voicemails that Allan received because Plaintiffs
identified those potential violations for the first time
in their motion for summary judgment. However,
PHEAA’s argument does not change anything.
Plaintiffs simply offered evidence that for 30 of the
calls that were placed to Allan’s cell phone using an
autodialer, PHEAA also left a voicemail using a pre-

App-40
recorded voice. In other words, the 30 pre-recorded
voicemails were included in the 353 violations and
were not alleged as additional violations, only as an
alternative theory of recovery.
Finally, the Court has to determine the amount of
damages. Under the TCPA, a plaintiff may bring “an
action to recover for actual monetary loss from [a
violation of the TCPA], or to receive $500 in damages
for each such violation, whichever is greater,” 47
U.S.C. § 227(b)(3)(B). But if the Court finds that the
defendant “willfully or knowingly violated” the TCPA,
“the court may, in its discretion, increase the amount
of the award” to as much as $1500 per violation. 47
U.S.C. § 227(b)(3).
Plaintiffs
argue
that
PHEAA’s
conduct
constituted willful and knowing violations of the
TCPA because PHEAA continued calling Plaintiffs
using an ATDS after they revoked consent to receive
such calls. However, that is simply what is required to
violate the statute. Moreover, at the time that PHEAA
acted in violation of the statute, the FCC had
equivocated on whether the type of system PHEAA
used qualified as an ATDS. Therefore, the Court finds
that PHEAA did not violate the TCPA willfully or
knowingly, and will award statutory damages of $500
per violation.
V. CONCLUSION
For the foregoing reasons, the Court will grant
Plaintiffs’ motion for summary judgment and award
Plaintiffs $176,500 for PHEAA’s 353 TCPA violations.

App-41
An Order consistent with this Opinion will enter.
Dated: August 19, 2019

s/Gordon J. Quist
GORDON J. QUIST
UNITED STATES
DISTRICT JUDGE

App-42
Appendix C
RELEVANT STATUTORY PROVISIONS
47 U.S.C. § 227
(a) Definitions
As used in this section—
(1) The term “automatic telephone dialing
system” means equipment which has the
capacity—
(A) to store or produce telephone numbers to
be called, using a random or sequential
number generator; and
(B) to dial such numbers.
(2) The term “established business relationship”,
for purposes only of subsection (b)(1)(C)(i), shall
have the meaning given the term in section
64.1200 of title 47, Code of Federal Regulations,
as in effect on January 1, 2003, except that—
(A) such term shall include a relationship
between a person or entity and a business
subscriber subject to the same terms
applicable under such section to a
relationship between a person or entity and a
residential subscriber; and
(B) an established business relationship
shall be subject to any time limitation
established pursuant to paragraph (2)(G)).1
(3) The term “telephone facsimile machine”
means equipment which has the capacity (A) to
1 So in original. Second closing parenthesis probably should not
appear.

App-43
transcribe text or images, or both, from paper into
an electronic signal and to transmit that signal
over a regular telephone line, or (B) to transcribe
text or images (or both) from an electronic signal
received over a regular telephone line onto paper.
(4) The term “telephone solicitation” means the
initiation of a telephone call or message for the
purpose of encouraging the purchase or rental of,
or investment in, property, goods, or services,
which is transmitted to any person, but such term
does not include a call or message (A) to any
person with that person’s prior express invitation
or permission, (B) to any person with whom the
caller has an established business relationship, or
(C) by a tax exempt nonprofit organization.
(5) The term “unsolicited advertisement” means
any material advertising the commercial
availability or quality of any property, goods, or
services which is transmitted to any person
without that person’s prior express invitation or
permission, in writing or otherwise.
(b) Restrictions on use of automated telephone
equipment
(1) Prohibitions
It shall be unlawful for any person within the
United States, or any person outside the United States
if the recipient is within the United States—
(A) to make any call (other than a call made
for emergency purposes or made with the
prior express consent of the called party)
using any automatic telephone dialing
system or an artificial or prerecorded voice—

App-44
(i) to any emergency telephone line
(including any “911” line and any
emergency line of a hospital, medical
physician or service office, health care
facility, poison control center, or fire
protection or law enforcement agency);
(ii) to the telephone line of any guest
room or patient room of a hospital, health
care facility, elderly home, or similar
establishment; or
(iii) to any telephone number assigned to
a paging service, cellular telephone
service, specialized mobile radio service,
or other radio common carrier service, or
any service for which the called party is
charged for the call, unless such call is
made solely to collect a debt owed to or
guaranteed by the United States;
(B) to initiate any telephone call to any
residential telephone line using an artificial
or prerecorded voice to deliver a message
without the prior express consent of the called
party, unless the call is initiated for
emergency purposes, is made solely pursuant
to the collection of a debt owed to or
guaranteed by the United States, or is
exempted by rule or order by the Commission
under paragraph (2)(B);
(C) to use any telephone facsimile machine,
computer, or other device to send, to a
telephone facsimile machine, an unsolicited
advertisement, unless—

App-45
(i) the unsolicited advertisement is
from a sender with an established
business relationship with the recipient;
(ii) the sender obtained the number of
the
telephone
facsimile
machine
through—
(I) the voluntary communication of
such number, within the context of
such
established
business
relationship, from the recipient of
the unsolicited advertisement, or
(II) a directory, advertisement, or
site on the Internet to which the
recipient voluntarily agreed to make
available its facsimile number for
public distribution,
except that this clause shall not apply in
the case of an unsolicited advertisement
that is sent based on an established
business relationship with the recipient
that was in existence before July 9, 2005,
if the sender possessed the facsimile
machine number of the recipient before
July 9, 2005; and
(iii) the
unsolicited
advertisement
contains
a
notice
meeting
the
requirements under paragraph (2)(D),
except that the exception under clauses (i)
and (ii) shall not apply with respect to an
unsolicited advertisement sent to a telephone
facsimile machine by a sender to whom a
request has been made not to send future

App-46
unsolicited advertisements to such telephone
facsimile machine that complies with the
requirements under paragraph (2)(E); or
(D) to use an automatic telephone dialing
system in such a way that two or more
telephone lines of a multi-line business are
engaged simultaneously.
(2) Regulations;
provisions

exemptions

and

other

The Commission shall prescribe regulations to
implement the requirements of this subsection. In
implementing the requirements of this subsection, the
Commission—
(A) shall consider prescribing regulations to
allow businesses to avoid receiving calls made
using an artificial or prerecorded voice to
which they have not given their prior express
consent;
(B) may, by rule or order, exempt from the
requirements of paragraph (1)(B) of this
subsection, subject to such conditions as the
Commission may prescribe—
(i) calls that are not made for a
commercial purpose; and
(ii) such classes or categories of calls
made for commercial purposes as the
Commission determines—
(I) will not adversely affect the
privacy rights that this section is
intended to protect; and

App-47
(II) do not include the transmission
of any unsolicited advertisement;
(C) may, by rule or order, exempt from the
requirements of paragraph (1)(A)(iii) of this
subsection calls to a telephone number
assigned to a cellular telephone service that
are not charged to the called party, subject to
such conditions as the Commission may
prescribe as necessary in the interest of the
privacy rights this section is intended to
protect;
(D) shall provide that a notice contained in
an unsolicited advertisement complies with
the requirements under this subparagraph
only if—
(i) the notice is clear and conspicuous
and on the first page of the unsolicited
advertisement;
(ii) the notice states that the recipient
may make a request to the sender of the
unsolicited advertisement not to send
any future unsolicited advertisements to
a telephone facsimile machine or
machines and that failure to comply,
within the shortest reasonable time, as
determined by the Commission, with
such a request meeting the requirements
under subparagraph (E) is unlawful;
(iii) the
notice
requirements for
subparagraph (E);

sets
forth
the
a request under

(iv) the notice includes—

App-48
(I) a domestic contact telephone
and facsimile machine number for
the recipient to transmit such a
request to the sender; and
(II) a cost-free mechanism for a
recipient to transmit a request
pursuant to such notice to the sender
of the unsolicited advertisement; the
Commission shall by rule require the
sender to provide such a mechanism
and may, in the discretion of the
Commission and subject to such
conditions as the Commission may
prescribe, exempt certain classes of
small business senders, but only if
the Commission determines that the
costs to such class are unduly
burdensome given the revenues
generated by such small businesses;
(v) the telephone and facsimile machine
numbers and the cost-free mechanism set
forth pursuant to clause (iv) permit an
individual or business to make such a
request at any time on any day of the
week; and
(vi) the notice complies with
requirements of subsection (d);

the

(E) shall provide, by rule, that a request not
to send future unsolicited advertisements to
a telephone facsimile machine complies with
the requirements under this subparagraph
only if—

App-49
(i) the request identifies the telephone
number or numbers of the telephone
facsimile machine or machines to which
the request relates;
(ii) the request is made to the telephone
or facsimile number of the sender of such
an unsolicited advertisement provided
pursuant to subparagraph (D)(iv) or by
any other method of communication as
determined by the Commission; and
(iii) the person making the request has
not, subsequent to such request, provided
express invitation or permission to the
sender, in writing or otherwise, to send
such advertisements to such person at
such telephone facsimile machine;
(F) may, in the discretion of the Commission
and subject to such conditions as the
Commission
may
prescribe,
allow
professional or trade associations that are
tax-exempt nonprofit organizations to send
unsolicited advertisements to their members
in furtherance of the association’s tax-exempt
purpose that do not contain the notice
required by paragraph (1)(C)(iii), except that
the Commission may take action under this
subparagraph only—
(i) by regulation issued after public
notice and opportunity for public
comment; and
(ii) if the Commission determines that
such notice required by paragraph
(1)(C)(iii) is not necessary to protect the

App-50
ability of the members of such
associations to stop such associations
from sending any future unsolicited
advertisements;
(G)(i)
may, consistent with clause (ii), limit
the duration of the existence of an
established
business
relationship,
however, before establishing any such
limits, the Commission shall—
(I) determine whether the existence
of the exception under paragraph
(1)(C) relating to an established
business relationship has resulted in
a significant number of complaints to
the Commission regarding the
sending
of
unsolicited
advertisements
to
telephone
facsimile machines;
(II) determine whether a significant
number of any such complaints
involve unsolicited advertisements
that were sent on the basis of an
established business relationship
that was longer in duration than the
Commission believes is consistent
with the reasonable expectations of
consumers;
(III) evaluate the costs to senders of
demonstrating the existence of an
established business relationship
within a specified period of time and
the benefits to recipients of
establishing a limitation on such

App-51
established business relationship;
and
(IV) determine whether with respect
to small businesses, the costs would
not be unduly burdensome; and
(ii) may not commence a proceeding to
determine whether to limit the duration
of the existence of an established
business
relationship
before
the
expiration of the 3-month period that
begins on July 9, 2005; and
(H) may restrict or limit the number and
duration of calls made to a telephone number
assigned to a cellular telephone service to
collect a debt owed to or guaranteed by the
United States.
(3) Private right of action
A person or entity may, if otherwise permitted by
the laws or rules of court of a State, bring in an
appropriate court of that State—
(A) an action based on a violation of this
subsection or the regulations prescribed
under this subsection to enjoin such violation,
(B) an action to recover for actual monetary
loss from such a violation, or to receive $500
in damages for each such violation, whichever
is greater, or
(C) both such actions.
If the court finds that the defendant willfully or
knowingly violated this subsection or the regulations
prescribed under this subsection, the court may, in its

App-52
discretion, increase the amount of the award to an
amount equal to not more than 3 times the amount
available under subparagraph (B) of this paragraph.
(c) Protection of subscriber privacy rights
(1) Rulemaking proceeding required
Within 120 days after December 20, 1991, the
Commission shall initiate a rulemaking proceeding
concerning the need to protect residential telephone
subscribers’ privacy rights to avoid receiving
telephone solicitations to which they object. The
proceeding shall—
(A) compare and evaluate alternative
methods and procedures (including the use of
electronic databases, telephone network
technologies, special directory markings,
industry-based or company-specific “do not
call” systems, and any other alternatives,
individually or in combination) for their
effectiveness in protecting such privacy
rights, and in terms of their cost and other
advantages and disadvantages;
(B) evaluate the categories of public and
private entities that would have the capacity
to establish and administer such methods
and procedures;
(C) consider whether different methods and
procedures may apply for local telephone
solicitations, such as local telephone
solicitations of small businesses or holders of
second class mail permits;
(D) consider whether there is a need for
additional Commission authority to further

App-53
restrict telephone solicitations, including
those calls exempted under subsection (a)(3)
of this section, and, if such a finding is made
and supported by the record, propose specific
restrictions to the Congress; and
(E) develop
proposed
regulations
to
implement the methods and procedures that
the Commission determines are most
effective and efficient to accomplish the
purposes of this section.
(2) Regulations
Not later than 9 months after December 20, 1991,
the Commission shall conclude the rulemaking
proceeding initiated under paragraph (1) and shall
prescribe regulations to implement methods and
procedures for protecting the privacy rights described
in such paragraph in an efficient, effective, and
economic manner and without the imposition of any
additional charge to telephone subscribers.
(3) Use of database permitted
The regulations required by paragraph (2) may
require the establishment and operation of a single
national database to compile a list of telephone
numbers of residential subscribers who object to
receiving telephone solicitations, and to make that
compiled list and parts thereof available for purchase.
If the Commission determines to require such a
database, such regulations shall—
(A) specify a method by which the
Commission will select an entity to
administer such database;

App-54
(B) require each common carrier providing
telephone exchange service, in accordance
with
regulations
prescribed
by
the
Commission, to inform subscribers for
telephone exchange service of the opportunity
to provide notification, in accordance with
regulations
established
under
this
paragraph, that such subscriber objects to
receiving telephone solicitations;
(C) specify the methods by which each
telephone subscriber shall be informed, by
the common carrier that provides local
exchange service to that subscriber, of (i) the
subscriber’s right to give or revoke a
notification
of
an
objection
under
subparagraph (A), and (ii) the methods by
which such right may be exercised by the
subscriber;
(D) specify the methods by which such
objections shall be collected and added to the
database;
(E) prohibit any residential subscriber from
being charged for giving or revoking such
notification or for being included in a
database compiled under this section;
(F) prohibit any person from making or
transmitting a telephone solicitation to the
telephone number of any subscriber included
in such database;
(G) specify (i) the methods by which any
person desiring to make or transmit
telephone solicitations will obtain access to
the database, by area code or local exchange

App-55
prefix, as required to avoid calling the
telephone numbers of subscribers included in
such database; and (ii) the costs to be
recovered from such persons;
(H) specify the methods for recovering, from
persons accessing such database, the costs
involved in identifying, collecting, updating,
disseminating, and selling, and other
activities relating to, the operations of the
database that are incurred by the entities
carrying out those activities;
(I) specify the frequency with which such
database will be updated and specify the
method by which such updating will take
effect for purposes of compliance with the
regulations prescribed under this subsection;
(J) be designed to enable States to use the
database mechanism selected by the
Commission for purposes of administering or
enforcing State law;
(K) prohibit the use of such database for any
purpose other than compliance with the
requirements of this section and any such
State law and specify methods for protection
of the privacy rights of persons whose
numbers are included in such database; and
(L) require each common carrier providing
services to any person for the purpose of
making telephone solicitations to notify such
person of the requirements of this section and
the regulations thereunder.

App-56
(4) Considerations
database method

required

for

use

of

If the Commission determines to require the
database mechanism described in paragraph (3), the
Commission shall—
(A) in developing procedures for gaining
access to the database, consider the different
needs of telemarketers conducting business
on a national, regional, State, or local level;
(B) develop a fee schedule or price structure
for recouping the cost of such database that
recognizes such differences and—
(i) reflect the relative costs of providing
a national, regional, State, or local list of
phone numbers of subscribers who object
to receiving telephone solicitations;
(ii) reflect the relative costs of providing
such lists on paper or electronic media;
and
(iii) not place an unreasonable financial
burden on small businesses; and
(C) consider (i) whether the needs of
telemarketers operating on a local basis could
be met through special markings of area
white pages directories, and (ii) if such
directories are needed as an adjunct to
database lists prepared by area code and local
exchange prefix.
(5) Private right of action
A person who has received more than one
telephone call within any 12-month period by or on

App-57
behalf of the same entity in violation of the regulations
prescribed under this subsection may, if otherwise
permitted by the laws or rules of court of a State bring
in an appropriate court of that State—
(A) an action based on a violation of the
regulations prescribed under this subsection
to enjoin such violation,
(B) an action to recover for actual monetary
loss from such a violation, or to receive up to
$500 in damages for each such violation,
whichever is greater, or
(C) both such actions.
It shall be an affirmative defense in any action
brought under this paragraph that the defendant has
established and implemented, with due care,
reasonable practices and procedures to effectively
prevent telephone solicitations in violation of the
regulations prescribed under this subsection. If the
court finds that the defendant willfully or knowingly
violated the regulations prescribed under this
subsection, the court may, in its discretion, increase
the amount of the award to an amount equal to not
more than 3 times the amount available under
subparagraph (B) of this paragraph.
(6) Relation to subsection (b)
The provisions of this subsection shall not be
construed to permit a communication prohibited by
subsection (b).

App-58
(d) Technical and procedural standards
(1) Prohibition
It shall be unlawful for any person within the
United States—
(A) to initiate any communication using a
telephone facsimile machine, or to make any
telephone call using any automatic telephone
dialing system, that does not comply with the
technical
and
procedural
standards
prescribed under this subsection, or to use
any telephone facsimile machine or
automatic telephone dialing system in a
manner that does not comply with such
standards; or
(B) to use a computer or other electronic
device to send any message via a telephone
facsimile machine unless such person clearly
marks, in a margin at the top or bottom of
each transmitted page of the message or on
the first page of the transmission, the date
and time it is sent and an identification of the
business, other entity, or individual sending
the message and the telephone number of the
sending machine or of such business, other
entity, or individual.
(2) Telephone facsimile machines
The Commission shall revise the regulations
setting technical and procedural standards for
telephone facsimile machines to require that any such
machine which is manufactured after one year after
December 20, 1991, clearly marks, in a margin at the
top or bottom of each transmitted page or on the first

App-59
page of each transmission, the date and time sent, an
identification of the business, other entity, or
individual sending the message, and the telephone
number of the sending machine or of such business,
other entity, or individual.
(3) Artificial or prerecorded voice systems
The Commission shall prescribe technical and
procedural standards for systems that are used to
transmit any artificial or prerecorded voice message
via telephone. Such standards shall require that—
(A) all artificial or prerecorded telephone
messages (i) shall, at the beginning of the
message, state clearly the identity of the
business, individual, or other entity initiating
the call, and (ii) shall, during or after the
message, state clearly the telephone number
or address of such business, other entity, or
individual; and
(B) any such system will automatically
release the called party’s line within 5
seconds of the time notification is transmitted
to the system that the called party has hung
up, to allow the called party’s line to be used
to make or receive other calls.
(e) Prohibition on provision of
caller identification information

inaccurate

(1) In general
It shall be unlawful for any person within the
United
States,
in
connection
with
any
telecommunications service or IP-enabled voice
service, to cause any caller identification service to
knowingly transmit misleading or inaccurate caller

App-60
identification information with the intent to defraud,
cause harm, or wrongfully obtain anything of value,
unless such transmission is exempted pursuant to
paragraph (3)(B).
(2) Protection
for
blocking
identification information

caller

Nothing in this subsection may be construed to
prevent or restrict any person from blocking the
capability of any caller identification service to
transmit caller identification information.
(3) Regulations
(A) In general
Not later than 6 months after December 22, 2010,
the Commission shall prescribe regulations to
implement this subsection.
(B) Content of regulations
(i) In general
The regulations required under subparagraph (A)
shall include such exemptions from the prohibition
under paragraph (1) as the Commission determines is
appropriate.
(ii) Specific exemption for law
enforcement agencies or court
orders
The regulations required under subparagraph (A)
shall exempt from the prohibition under paragraph (1)
transmissions in connection with—
(I) any authorized activity of a law
enforcement agency; or

App-61
(II) a court order that specifically
authorizes the use of caller
identification manipulation.
(4) Repealed
Pub.L. 115-141, Div. P, Title IV, § 402(i)(3), Mar.
23, 2018, 132 Stat. 1089
(5) Penalties
(A) Civil forfeiture
(i) In general
Any person that is determined by the
Commission, in accordance with paragraphs (3) and
(4) of section 503(b) of this title, to have violated this
subsection shall be liable to the United States for a
forfeiture penalty. A forfeiture penalty under this
paragraph shall be in addition to any other penalty
provided for by this chapter. The amount of the
forfeiture penalty determined under this paragraph
shall not exceed $10,000 for each violation, or 3 times
that amount for each day of a continuing violation,
except that the amount assessed for any continuing
violation shall not exceed a total of $1,000,000 for any
single act or failure to act.
(ii) Recovery
Any forfeiture penalty determined under clause
(i) shall be recoverable pursuant to section 504(a) of
this title.
(iii) Procedure
No forfeiture liability shall be determined under
clause (i) against any person unless such person
receives the notice required by section 503(b)(3) of this
title or section 503(b)(4) of this title.

App-62
(iv) 2-year statute of limitations
No forfeiture penalty shall be determined or
imposed against any person under clause (i) if the
violation charged occurred more than 2 years prior to
the date of issuance of the required notice or notice or
apparent liability.
(B) Criminal fine
Any person who willfully and knowingly violates
this subsection shall upon conviction thereof be fined
not more than $10,000 for each violation, or 3 times
that amount for each day of a continuing violation, in
lieu of the fine provided by section 501 of this title for
such a violation. This subparagraph does not
supersede the provisions of section 501 of this title
relating to imprisonment or the imposition of a
penalty of both fine and imprisonment.
(6) Enforcement by States
(A) In general
The chief legal officer of a State, or any other State
officer authorized by law to bring actions on behalf of
the residents of a State, may bring a civil action, as
parens patriae, on behalf of the residents of that State
in an appropriate district court of the United States to
enforce this subsection or to impose the civil penalties
for violation of this subsection, whenever the chief
legal officer or other State officer has reason to believe
that the interests of the residents of the State have
been or are being threatened or adversely affected by
a violation of this subsection or a regulation under this
subsection.

App-63
(B) Notice
The chief legal officer or other State officer shall
serve written notice on the Commission of any civil
action under subparagraph (A) prior to initiating such
civil action. The notice shall include a copy of the
complaint to be filed to initiate such civil action, except
that if it is not feasible for the State to provide such
prior notice, the State shall provide such notice
immediately upon instituting such civil action.
(C) Authority to intervene
Upon receiving the notice required by
subparagraph (B), the Commission shall have the
right—
(i) to intervene in the action;
(ii) upon so intervening, to be heard on
all matters arising therein; and
(iii) to file petitions for appeal.
(D) Construction
For purposes of bringing any civil action under
subparagraph (A), nothing in this paragraph shall
prevent the chief legal officer or other State officer
from exercising the powers conferred on that officer by
the laws of such State to conduct investigations or to
administer oaths or affirmations or to compel the
attendance of witnesses or the production of
documentary and other evidence.
(E) Venue; service or process
(i) Venue
An action brought under subparagraph (A) shall
be brought in a district court of the United States that

App-64
meets applicable requirements relating to venue
under section 1391 of title 28.
(ii) Service of process
In an action brought under subparagraph (A)—
(I) process may be served without
regard to the territorial limits of the
district or of the State in which the
action is instituted; and
(II) a person who participated in an
alleged violation that is being
litigated in the civil action may be
joined in the civil action without
regard to the residence of the person.
(7) Effect on other laws
This subsection does not prohibit any lawfully
authorized investigative, protective, or intelligence
activity of a law enforcement agency of the United
States, a State, or a political subdivision of a State, or
of an intelligence agency of the United States.
(8) Definitions
For purposes of this subsection:
(A) Caller identification information
The term “caller identification information”
means information provided by a caller identification
service regarding the telephone number of, or other
information regarding the origination of, a call made
using a telecommunications service or IP-enabled
voice service.
(B) Caller identification service
The term “caller identification service” means any
service or device designed to provide the user of the

App-65
service or device with the telephone number of, or
other information regarding the origination of, a call
made using a telecommunications service or IPenabled voice service. Such term includes automatic
number identification services.
(C) IP-enabled voice service
The term “IP-enabled voice service” has the
meaning given that term by section 9.3 of the
Commission’s regulations (47 C.F.R. 9.3), as those
regulations may be amended by the Commission from
time to time.
(9) Limitation
Notwithstanding any other provision of this
section, subsection (f) shall not apply to this
subsection or to the regulations under this subsection.
(f) Effect on State law
(1) State law not preempted
Except for the standards prescribed under
subsection (d) and subject to paragraph (2) of this
subsection, nothing in this section or in the
regulations prescribed under this section shall
preempt any State law that imposes more restrictive
intrastate requirements or regulations on, or which
prohibits—
(A) the use of telephone facsimile machines or
other electronic devices to send unsolicited
advertisements;
(B) the use of automatic telephone dialing
systems;
(C) the use of artificial or prerecorded voice
messages; or

App-66
(D) the making of telephone solicitations.
(2) State use of databases
If, pursuant to subsection (c)(3), the Commission
requires the establishment of a single national
database of telephone numbers of subscribers who
object to receiving telephone solicitations, a State or
local authority may not, in its regulation of telephone
solicitations, require the use of any database, list, or
listing system that does not include the part of such
single national database that relates to such State.
(g) Actions by States
(1) Authority of States
Whenever the attorney general of a State, or an
official or agency designated by a State, has reason to
believe that any person has engaged or is engaging in
a pattern or practice of telephone calls or other
transmissions to residents of that State in violation of
this section or the regulations prescribed under this
section, the State may bring a civil action on behalf of
its residents to enjoin such calls, an action to recover
for actual monetary loss or receive $500 in damages
for each violation, or both such actions. If the court
finds the defendant willfully or knowingly violated
such regulations, the court may, in its discretion,
increase the amount of the award to an amount equal
to not more than 3 times the amount available under
the preceding sentence.
(2) Exclusive jurisdiction of Federal courts
The district courts of the United States, the
United States courts of any territory, and the District
Court of the United States for the District of Columbia
shall have exclusive jurisdiction over all civil actions

App-67
brought under this subsection. Upon proper
application, such courts shall also have jurisdiction to
issue writs of mandamus, or orders affording like
relief, commanding the defendant to comply with the
provisions of this section or regulations prescribed
under this section, including the requirement that the
defendant take such action as is necessary to remove
the danger of such violation. Upon a proper showing,
a permanent or temporary injunction or restraining
order shall be granted without bond.
(3) Rights of Commission
The State shall serve prior written notice of any
such civil action upon the Commission and provide the
Commission with a copy of its complaint, except in any
case where such prior notice is not feasible, in which
case the State shall serve such notice immediately
upon instituting such action. The Commission shall
have the right (A) to intervene in the action, (B) upon
so intervening, to be heard on all matters arising
therein, and (C) to file petitions for appeal.
(4) Venue; service of process
Any civil action brought under this subsection in
a district court of the United States may be brought in
the district wherein the defendant is found or is an
inhabitant or transacts business or wherein the
violation occurred or is occurring, and process in such
cases may be served in any district in which the
defendant is an inhabitant or where the defendant
may be found.
(5) Investigatory powers
For purposes of bringing any civil action under
this subsection, nothing in this section shall prevent

App-68
the attorney general of a State, or an official or agency
designated by a State, from exercising the powers
conferred on the attorney general or such official by
the laws of such State to conduct investigations or to
administer oaths or affirmations or to compel the
attendance of witnesses or the production of
documentary and other evidence.
(6) Effect on State court proceedings

Nothing contained in this subsection shall be
construed to prohibit an authorized State official from
proceeding in State court on the basis of an alleged
violation of any general civil or criminal statute of
such State.
(7) Limitation
Whenever the Commission has instituted a civil
action for violation of regulations prescribed under
this section, no State may, during the pendency of
such action instituted by the Commission,
subsequently institute a civil action against any
defendant named in the Commission’s complaint for
any violation as alleged in the Commission’s
complaint.
(8) “Attorney general” defined
As used in this subsection, the term “attorney
general” means the chief legal officer of a State.
(h) Junk fax enforcement report
The Commission shall submit an annual report to
Congress regarding the enforcement during the past
year of the provisions of this section relating to
sending of unsolicited advertisements to telephone
facsimile machines, which report shall include—

App-69
(1) the number of complaints received by the
Commission during such year alleging that a
consumer received an unsolicited advertisement
via telephone facsimile machine in violation of the
Commission’s rules;
(2) the number of citations issued by the
Commission pursuant to section 503 of this title
during the year to enforce any law, regulation, or
policy relating to sending of unsolicited
advertisements to telephone facsimile machines;
(3) the number of notices of apparent liability
issued by the Commission pursuant to section 503
of this title during the year to enforce any law,
regulation, or policy relating to sending of
unsolicited advertisements to telephone facsimile
machines;
(4) for each notice referred to in paragraph (3)—
(A) the amount of the proposed forfeiture
penalty involved;
(B) the person to whom the notice was issued;
(C) the length of time between the date on
which the complaint was filed and the date on
which the notice was issued; and
(D) the status of the proceeding;
(5) the number of final orders imposing forfeiture
penalties issued pursuant to section 503 of this
title during the year to enforce any law,
regulation, or policy relating to sending of
unsolicited advertisements to telephone facsimile
machines;

App-70
(6) for each forfeiture order referred to in
paragraph (5)—
(A) the amount of the penalty imposed by the
order;
(B) the person to whom the order was issued;
(C) whether the forfeiture penalty has been
paid; and
(D) the amount paid;
(7) for each case in which a person has failed to
pay a forfeiture penalty imposed by such a final
order, whether the Commission referred such
matter for recovery of the penalty; and
(8) for each case in which the Commission referred
such an order for recovery—
(A) the number of days from the date the
Commission issued such order to the date of
such referral;
(B) whether an action has been commenced to
recover the penalty, and if so, the number of
days from the date the Commission referred
such order for recovery to the date of such
commencement; and
(C) whether the recovery action resulted in
collection of any amount, and if so, the
amount collected.

